U.S. Departmentof                                               The Inspector General               Office of Inspector General
                                                                                                    Washington, D.C 20590
Transportation
Office of the Secretary
of Transportation




  July 13,2006


  The Honorable Christopher "Kit" Bond                          The Honorable Joe Knollenberg
  Chairman                                                      Chairman
  Subcommittee on Transportation,                               Subcommittee on Transportation,
  Treasury, the Judiciary,                                      Treasury, Housing and Urban
  Housing and Urban Development,                                Development, the Judiciary,
  and Related Agencies                                          and District of Columbia
  Committee on Appropriations                                   Committee on Appropriations
  United States Senate                                          United States House of Representatives
  Washington, DC 205 10                                         Washington, DC 205 15

  The Honorable Patty Murray                                    The Honorable John W. Olver
  Ranking Member                                                Ranking Member
  Subcommittee on Transportation,                               Subcommittee on Transportation,
  Treasury, the Judiciary,                                      Treasury, Housing and Urban
  Housing and Urban Development,                                Development, the Judiciary,
  and Related Agencies                                          and District of Columbia
  Committee on Appropriations                                   Committee on Appropriations
  United States Senate                                          United States House of Representatives
  Washington, DC 205 10                                         Washington, DC 205 15

  Dear Chairmen Bond and Knollenberg and Ranking Members Murray and Olver:

  This report1 (1) presents o w quarterly assessment of the savings2 Amtrak has
  achieved from operational reforms, (2) fulfills the certification requirement
  included in the fiscal year (FY) 2006 Appropriations ~ c t ' ,and (3) includes our
  evaluation of the Department of Transportation's (DOT) efforts to set and collect


  '   The Transportation, Treasury, Housing and Urban Development, the Judiciary, District of Columbia, and
      Independent Agencies Appropriations Act, 2006, required our office to report quarterly to your Committees whether
      or not, and to what extent, Amtrak has achieved savings from operational rcforms.
      Defined throughout as either net operating savings or a reduction in net operating losses.
  '   Under the Act, unless we certify that Amtrak has achieved operational savings by July 1, 2006, Amtrak will be
      prohibited from using appropriated funds to subsidize the net losses fiom food, beverage, and sleeper car service on
      any Amtrak route.
access fees from commuter railroads for use of Amtrak-owned infrastructure on
the Northeast Corridor (NEC).4

Summary

• For the purpose of this report’s certification requirement5, Amtrak has achieved
  operational savings of $3.8 million through May 2006.6 This compares to the
  $214,000 in savings we reported Amtrak had achieved through January 2006 in
  our April quarterly report.

• Amtrak has achieved $46.3 million in savings through May 2006 from all its
  FY 2006 operational reforms.

• These overall savings from reform contribute to Amtrak’s current better-than-
  expected financial performance. Through May, Amtrak’s operating loss is
  $99 million below the year-to-date projected loss in the $586 million subsidy
  baseline7 (see Figure 1 on page 5). To live within its FY 2006 appropriations,
  Amtrak must maintain and expand upon this improved performance so that its
  operating loss through September is $101 million below the $586 million
  baseline.

• Amtrak currently estimates its financial performance will continue to improve
  and, as a result, expects to end FY 2006 with a $165 million cash balance.

• We have worked with Amtrak since our April report to ensure the reliability of
  Amtrak’s savings estimates for each operational reform. We are confident that
  Amtrak is reliably tracking these savings. Some limitations with Amtrak’s
  data remain, particularly Amtrak’s ability to measure savings at the sub-
  initiative level within its food and beverage reforms.

• Many of Amtrak’s reform initiatives simply reflect standard management
  practices of well-run businesses. The test for Amtrak will be to move beyond
  the “low-hanging fruit” to successfully implement more difficult reforms in


4
    The report accompanying the FY 2006 Appropriations Act directed our office to include an assessment of the
    Department’s efforts to set and collect fees from commuter railroads for the use of Amtrak-owned infrastructure on
    the Northeast Corridor beginning with this July quarterly report.
5
    As we indicated in our April 6, 2006, quarterly report, our certification is focused on savings from operational
    reforms not specifically included in Amtrak’s FY 2006 Board-approved budget. The specific operational reforms
    included in that budget resulted in the $586 million subsidy baseline established in our January report. In April we
    referred to savings “beyond those included in the Board-approved budget” as “not in the baseline”. We changed our
    terminology in this report to improve the clarity of how we categorized different reforms.
6
    Throughout the report “through a specified date” means from October 1, 2005 to that date.
7
    The $586 million subsidy baseline is described on page 3.


CC-2006-040                                                                                                           2
      food and beverage service, sleeper car service, route restructuring, State
      payments, and labor contracts.

• Amtrak should continually increase its efficiency by benchmarking its costs
  against the costs for similar business practices at well-run businesses. The
  managerial cost accounting system Amtrak is developing will provide
  important data to this benchmarking process. Our office is monitoring
  Amtrak’s development of this system, both to help ensure it is well designed
  and to respond better to congressional direction that we report on the strengths
  and weaknesses of the system once it is implemented.8

• Unless the Federal Railroad Administration issues a rule regarding the NEC
  commuter access fees almost immediately, it is unlikely they will collect the
  fees in FY 2006. We have concerns about the quality of the data upon which
  these fees would be based, how year-to-year swings in capital spending would
  be addressed, and the definition of the NEC. (Our concerns on these and other
  related issues are included in Appendix D.)

Structure of this Letter

In our January 2006 report, we stated we would evaluate Amtrak’s net operating
savings on four levels of detail: (1) corporate, (2) business line, (3) route, and
(4) strategic reform initiatives, that is, operational reforms. Amtrak’s net
operating savings are measured against the FY 2006 operating subsidy baseline of
$586 million we established in January. Therefore, this letter sets the stage by first
discussing the operating subsidy baseline. We have also included a discussion of
the reliability of the data used to estimate these savings.

$586 Million Subsidy Baseline

The $586 million subsidy baseline reflects Amtrak’s expected operating loss based
upon the FY 2006 budget approved by its Board of Directors in September 2005.
That is, the operational reforms specified in that budget would result in a projected
operating loss of $586 million.

To live within the FY 2006 appropriated Federal operating subsidy, Amtrak must
reduce its operating loss from the $586 million subsidy baseline to the



8
    Within 30 days of development of the managerial cost accounting system, the FY 2006 Appropriations Act requires
    us to review and comment to the Secretary and the House and Senate Appropriations Committees upon the strengths
    and weaknesses of the system and how it best can be implemented to improve decision making by the Board of
    Directors and management of the Corporation.


CC-2006-040                                                                                                      3
appropriated subsidy of $485 million.9 This will require net savings of
$101 million beyond the operational reforms specifically included in the
$586 million baseline.

Data Reliability

This report relies upon data generated by Amtrak’s current revenue and cost
accounting systems. These systems do not readily support reporting and analysis
of financial data on an initiative-level basis. In our April 2006 report, we
cautioned that the data provided by Amtrak were not audited. Since that report,
we worked with Amtrak to ensure that Amtrak’s savings estimates are reliable.
We are now confident that Amtrak is properly tracking savings.

Amtrak established a new tracking system to measure savings from initiatives.
This system draws on data from: (1) Amtrak’s financial information system or
general ledger, (2) savings specified by contract, and (3) assumptions based on
expected activity levels. This new system and our work with Amtrak resulted in
some new savings estimates that eliminated double-counting in some initiatives.

More detail on the methodology used in determining the reliability of the data
generated by Amtrak can be found in Appendix C.

Corporate Level Results

Amtrak’s overall financial performance continues to be better than expected. It
has reduced its operating loss by $99 million below the year-to-date loss projected
in the $586 million subsidy baseline (see Figure 1). To live within its FY 2006
appropriation of $485 million, Amtrak must sustain and expand upon this
performance over the next 4 months to end the fiscal year at $101 million below
the baseline. This will require Amtrak to continue to implement operational
reform, control its costs, maximize its revenues, and successfully address any
unforeseen adverse events.




9
    The FY 2006 Appropriations Act provided Amtrak a $495 million operating grant. The amount available to Amtrak
    for operations after the 1 percent across-the-board rescission and the $5 million dedicated to the development of a
    managerial cost accounting system was $485 million.


CC-2006-040                                                                                                          4
                                                   Figure 1. Amtrak Operating Loss
                                                   FY 2006 Year-to-Date through May

                              Oct     Nov       Dec         Jan       Feb         Mar        Apr        May         Jun     Jul    Aug     Sep
                        0
                               (39)
                                         (65)
                             (51)                  (109)

                                       (99)                   (163)

                                                (150)                    (212)
                     (200)
                                                                                    (255)
     $ in millions




                                                           (219)
                                                                                                (283)
                                                                      (283)                                (320)


                     (400)
                                                                                 (333)                     } $99 million savings to date
                                                                                            (375)

                                                                                                        (419)

                                        $485 million                                                               (451)   (491)
                                      Federal Subsidy                                                                              (535)
                     (600)
                                                                                                                                           (586)

                                                                         Actual          Baseline Budget




This improved financial performance reflects $44.1 million in savings from
revenue increases, $35.4 million in savings from lower labor costs, and
$19.5 million in other savings.

The revenue increase includes $17.5 million in passenger ticket revenue, in part
due to Amtrak’s system-wide general fare increases and the implementation of
variable fares (i.e., revenue management10) for the NEC Regional and Acela
services, and $26.6 million from commuter and other non-passenger revenues.11
The reduced labor costs reflect a total employment level that was 1,390 lower than
planned.

Of significance, other savings include reduced corporate overhead expenses (e.g.,
professional fees, data processing), which were $20.6 million less than expected,
and lower train operations costs, which were $5.1 million below projected levels
due to lower food supply costs, schedule adherence payments to host freight
railroads, and maintenance of equipment materials costs. These savings were
partially offset by increases in fuel and power costs ($9.4 million) and
maintenance of way materials costs ($2.3 million).



10
   Amtrak extended its current revenue management practices to the NEC Regional and Acela trains. Amtrak is now
   charging variable fares, based on demand levels, rather than the previous peak/non-peak fare approach.
11
   Non-passenger revenues include reimbursable, commercial development, other transportation and freight access fees
   and miscellaneous one-time revenues.


CC-2006-040                                                                                                                                        5
Amtrak projects it will end FY 2006 with a $165 million cash balance, $90 million
more cash on hand than at the end of FY 2005. Amtrak originally anticipated
having to draw down its cash balances in FY 2006 to make ends meet. Instead,
based on current projections, it will be able to increase these balances.

Business Line Results

As shown in Table 1, most of Amtrak’s improved performance to date comes from
the National Train System Operations (core) business line. Through May 2006,
losses from Amtrak’s core operations were $57.1 million less than expected,
relative to the $586 million subsidy baseline. Amtrak achieved additional savings
of $41.8 million from its Infrastructure Management, Ancillary Business
(commuter, reimbursable, and commercial operations), and Unallocated Systems
(overhead) business lines.

 Table 1. Amtrak Net Profit/(Loss), Excluding Federal Operating Subsidies*
               FY 2006 – Year to Date through May ($ in Millions)

                                                                                             Compared
 Business Line                                            Actual          Baseline
                                                                                            to Baseline
 National Train System Operations                       ($221.4)          ($278.5)                $57.1
     NEC                                                    148.4             131.1                 17.3
     State Supported and Other Corridors                    (61.6)            (74.4)                12.8
     Long-Distance Service                                (308.1)           (335.1)                 27.0
 Infrastructure Management                                 (40.2)            (55.1)                14.9
 Ancillary Business                                          58.3              45.7                12.6
 Unallocated System                                      (116.3)           (130.6)                 14.3
  Total                                                 ($319.6)          ($418.5)                $99.0
* Amtrak reports these financials on an earnings before interest, taxes, depreciation and OPEBs (other post-
  employment benefits) basis.


Route Level Results

Amtrak’s food and beverage initiative is the only reform so far that affects direct
train costs; other reforms achieve savings at the corporate level. There are several
food and beverage initiatives that are measurable at the route level. These include
the Simplified Dining program, the elimination of food service on the Empire
Corridor, and offering an enhanced food service program on the Empire Builder.

As of May 24, 2006, Amtrak’s Simplified Dining program has been implemented
on all of the long-distance trains except the Empire Builder and the Auto Train.


CC-2006-040                                                                                                6
Savings from Simplified Dining are measurable by route and are shown in
Table 2. The initiative incurs additional costs for food stock and supplies due to
the pre-preparation and packaging of meals; however, the significant labor savings
produce a net benefit to the initiative.

          Table 2. Simplified Dining Program Net Operating Savings
            FY 2006 – Year to Date through May ($ in Thousands)
 Long Distance             Months in       Labor      Non-Labor      Net
 Service                   Operation      Savings      (Loss)   Savings/(Loss)
 City of New Orleans           3½          $175.6       ($101.1)             $74.5
 Texas Eagle                   3½           219.1         (197.5)             21.7
 Sunset Limited                3½           539.6          (47.8)            491.8
 Capitol Limited               3½           226.9         (117.3)            109.6
 Silver Star                   1½             66.5         (97.9)           (31.3)
 Lakeshore Limited             1½             94.6         (71.3)             23.3
 Southwest Chief               1½           615.9         (164.0)            451.9
 Silver Meteor                  1           161.8          (97.9)             64.0
 Crescent                       1           113.1          (56.5)             56.5
 Coast Starlight                ¼           277.2          (71.6)            205.5
   Total Savings                         $2,490.3      ($1,022.8)        $1,467.5

Also as part of its food and beverage initiative, Amtrak eliminated all food service
on some trains serving the Empire Corridor from New York, New York, to
Albany, New York, and closed the Albany Commissary. Amtrak reported savings
through May 2006 of $931,658 excluding food and beverage revenue and supplies
with a full year of savings projected at $1.1 million.

Amtrak’s enhanced Empire Builder service achieved savings of $4.2 million
through April 2006, well in excess of the $2.6 million it was expected to achieve
for all of FY 2006. Despite these savings, the Empire Builder has lost
$29.2 million through April 2006.

Strategic Reform Initiatives (Operational Reforms)

Amtrak identified 15 areas of operational reforms aimed at reducing long-term
annual operating losses (see Appendix A). Only 4 of these 15 reform initiatives—
food and beverage, mechanical, customer service, and management information—
have progressed to the point of having estimated annual savings and estimated
implementation periods.

CC-2006-040                                                                       7
Amtrak has achieved $46.3 million in savings from all operational reforms
through May 2006. These savings from reforms fall into two categories:
$42.5 million from reforms already reflected in Amtrak’s FY 2006 Board-
approved budget and $3.8 million from operational reforms beyond those included
in Amtrak’s FY 2006 Board-approved budget.

As previously stated, the reforms already reflected in the Board-approved budget
and, therefore, in our January baseline, were not considered for the purpose of our
certification requirement (see Appendix B, Table B-3 for a discussion of Amtrak’s
progress on these reforms). The reforms beyond those included in the Board-
approved budget are the ones we focused on for the certification requirement (see
Appendix B, Table B-2). These operational reforms include the following.

• Food and Beverage Reform. Amtrak expects to achieve $4.8 million in
   operating savings in FY 2006 from several modifications to its food and
   beverage service. Through May, Amtrak has realized $2.0 million in net
   operating savings from these modifications. The largest projected benefit is
   from implementing its Simplified Dining program. This program relies on
   fully prepared food products that only require heating on-board in a convection
   or microwave oven and uses disposable dinnerware. Through May, net cost
   savings from Simplified Dining were $1.5 million. In addition, Amtrak saved
   $520,833 through May by renegotiating the contract with its food supplier,
   Gate Gourmet, and expects total annual savings of $937,500 in FY 2006.

   Amtrak also plans to offer continuous, restaurant-style dining service and
   enhanced customer service, which is expected to increase food revenues. The
   program includes a new dining car advance reservation system to improve
   customer service, reduce on-board spoilage, and increase spending in the
   dining car by coach passengers.

• Corporate Overhead. Amtrak expects to achieve $1.4 million in operating
   savings from technology efficiencies in FY 2006. These will come from
   outsourcing information technology; lower software, storage, and
   communications costs; and increased management controls. Through May,
   Amtrak has realized $753,000 in net operating savings from these initiatives.
   Energy management efficiencies achieved through enhanced oversight of
   utility expenditures and new contracts resulted in an additional $1.0 million in
   savings through May 2006. These savings reflect commuter traction power
   contracts due to higher energy costs billed back to commuters.




CC-2006-040                                                                      8
• Other Operational Reforms.   Several additional operational reforms are
   described in Appendix A. However, none of these are expected to generate
   savings in FY 2006.

Sustained Reform Over the Next Several Years Is Needed To Continue
Reducing Amtrak’s Operating Subsidy

Amtrak’s ability to achieve credible reductions to its Federal operating subsidy
will take significant effort by Amtrak’s Board of Directors and its management
over the next several years. Following are some of the issues that we believe
require particular attention.

Continuous Reform. Operating Amtrak efficiently requires institutionalizing a
process of continuous self-evaluation and benchmarking Amtrak’s costs against
the costs for similar business practices by well-run companies.             This
benchmarking will identify potential areas for further reforms and cost savings.
Since the returns from reforms may diminish over time, Amtrak must continue to
seek out and implement all opportunities to reduce its costs.

Critical to this benchmarking and unit costs analysis will be the development of an
Amtrak managerial accounting system. Amtrak is currently developing a new
system that will replace its Financial Information System general ledger with a
state-of-the-art integrated financial system. Concurrently, Amtrak plans to replace
its legacy activity-based Route Profitability System with one that will support both
avoidable and full-cost methodologies and provide business-line and route level
activity-based analysis. Avoidable costs are those that would not be incurred if a
service was not provided, for example, fuel. Full-cost methodology allocates all
costs to Amtrak’s functions, including overhead and capital. We expect Amtrak to
submit a statement of work to the Federal Railroad Administration (FRA) shortly
that will identify the new system’s characteristics and functionalities.

Within 30 days of development of the managerial cost accounting system, the
FY 2006 Appropriations Act requires us to review and comment to the Secretary
and the House and Senate Appropriations Committees upon the strengths and
weaknesses of the system and how it best can be implemented to improve decision
making by the Board of Directors and management of the Corporation. Our office
is already engaged in monitoring the development of the system.

Food and Beverage Service. The shortcomings associated with Amtrak’s food
and beverage service are well documented. The Amtrak Inspector General




CC-2006-040                                                                       9
concluded that Amtrak spends about $2 for each $1 sale of food,12 and has
identified substantial problems in management of food operations, including
efforts to outsource. Our July 2005 report on Amtrak’s long-distance service13
concluded that Amtrak must find ways to provide food service in a much more
efficient manner to eliminate the need for Federal subsidies for food services.

Amtrak estimates its food and beverage reforms will reduce its $104.7 million
annual loss on food and beverage to between $27.2 million and $58.7 million.
The efforts underway to improve the food and beverage service’s financial
performance represent progress on the part of Amtrak. However, the expected
losses that will remain once the initiative is fully implemented should not be
viewed as satisfactory. While there is a need to provide food and beverage service
to riders of some Amtrak trains, there is no reason Federal taxpayers should
subsidize the cost of providing that service. Amtrak should strive to achieve
additional cost reductions to continue to reduce the financial support that Federal
taxpayers provide to this service.

Amtrak’s current approach has been to retain the basic food and beverage service
but make it more cost efficient. If Amtrak cannot extend these reforms so that it
eliminates the food and beverage service operating loss, it needs to pursue other
alternatives. As we discussed in our July 2005 report, these alternatives include
raising food prices, outsourcing, having passengers obtain meals in stations during
regular stops, distributing boxed meals that have been prepared off the train, or
selling packaged food from carts on the train.

Sleeper Car Service. The chief reason for providing Amtrak’s long-distance
service is to meet the basic mobility needs of the American public. It is not to
provide first-class, sleeper car amenities that cannot be supported without adding
to the operating loss and, consequently, requiring more federal subsidies. On a
fully allocated cost basis, each passenger receiving sleeper class services on
Amtrak’s long-distance trains were subsidized in FY 2004 with Federal monies
ranging from $269 on the Auto Train to $627 on the Sunset Limited. In our July
2005 report, we identified potential annual operating savings of between
$75 million and $158 million and potential savings on a fully allocated basis of
between $184 million and $267 million from eliminating sleeper class and related
services.

Amtrak’s sleeper service restructuring initiative will reduce sleeper service losses
through food and beverage service modifications, “right-sizing” staffing and

12
     Amtrak Inspector General Report Number E-05-03, “Evaluation Report: Food and Beverage Financial
     Performance,” 2005.
13
     OIG Report No. CR-2005-068, “Analysis of Cost Savings on Amtrak’s Long Distance Services,” July 22, 2005.
     OIG reports can be found on our website: www.oig.dot.gov.


CC-2006-040                                                                                               10
equipment, mechanical efficiencies and other reforms. We believe this initiative is
a promising start. The Board has not yet set a savings goal for this initiative. The
Board should consider setting a near-term goal focused on eliminating incremental
operating losses and a long-term goal of eliminating losses on a fully allocated
operating basis, plus a capital charge. The Board decided in its April 2005
Strategic Reform Initiatives to require States, over time, to reimburse Amtrak for
the fully allocated operating losses for State supported services. If fully allocated
operating losses is an appropriate standard for the States, it is also an appropriate
standard for Amtrak.

State-Supported Services, Route Restructuring, and Labor Contracts. It is
difficult to see how Amtrak can achieve significant further reductions to its
Federal operating subsidies without addressing these three areas. Amtrak has
taken on the challenging task of reforming these areas and should be given the
support and tools necessary to be successful and then be held accountable for
following through on meaningful reforms.

Currently some State corridor trains receive partial State support; other similar
trains receive no State support. Providing a service without passing through the
related cost inevitably leads to an inefficient use of resources. Amtrak’s Strategic
Initiatives would move all State corridor trains to payments that cover fully
allocated operating losses (excluding interest and depreciation) plus a capital
charge over 4 years. Amtrak has also begun a comprehensive evaluation of its
entire long-distance route network, for the purpose of identifying possible
restructuring and reconfiguration options. Any reconfiguring of the route network
will need to balance inter-city mobility needs with the cost of meeting those needs.

Finally, the current labor negotiations have the potential to significantly reduce
Amtrak’s costs of operations through reforms, such as more efficient work rules
and additional outsourcing flexibility. Labor is Amtrak’s single largest cost,
accounting for 68 percent of Amtrak’s total operating expenses through May 2006,
excluding interest, depreciation, and OPEBs.

Conclusion

Amtrak’s financial performance to date in FY 2006 is $99.0 million better than
expected, almost half of which is from savings from operational reforms.

Incremental operating savings over the next 5 or 6 years will not be sufficient to
fund the significant increases in capital investment required to return the system to
a state of good repair and promote corridor development. As we have said in the
past, the current system needs to be fundamentally restructured. A new model for



CC-2006-040                                                                       11
intercity passenger rail that ensures greater cost effectiveness, responsiveness, and
reliability is critical.

Under separate cover, we are transmitting copies of this letter to the Acting
Secretary of Transportation and the Chairman of the Board of Amtrak. If you
have any questions concerning this letter, please call me at (202) 366-1959 or
David E. Tornquist, Assistant Inspector General for Competition and Economic
Analysis, at (202) 366-9970.

Sincerely,




Todd J. Zinser
Acting Inspector General

Enclosures




CC-2006-040                                                                       12
                    Appendix A. Amtrak’s Operational Reforms Description

                           Table A. Amtrak’s Proposed Operational Reforms

                                                                            Estimated
       Reform                                                                               Implementation
                                          Objective                      Annual Savings
      Initiative                                                                                Period
                                                                          ($ in millions)

 Corporate


1. Food and             Enhance service flexibility, redesign                                  FY 2006-
                                                                              34-76
   beverage             equipment, and outsource certain services                              FY 2010


                        Adopt reliability-centered maintenance,
                                                                                               FY 2006-
2. Mechanical           consolidate facilities, and outsource selected        30-75
                                                                                               FY 2012
                        activities

                        Modernize ticket issuance, collection, and
3. Customer                                                                                    FY 2006-
                        reporting processes and improve service               12-25
   service                                                                                     FY 2010
                        quality measurement and delivery

                        Develop more accurate and timely
4. Management                                                                                  FY 2006-
                        information on costs of routes, individual             12
   information                                                                                 FY 2012
                        activities, and functions


                        Address ADA compliance, state-of-good-
5. Stations                                                                   TBD                TBD
                        repair, and reduce station operating costs


                        Reduce ticketing costs by reducing staffing,
6. Call Centers         increasing utilization of lower cost                  TBD                TBD
                        distribution channels, and outsourcing

                        Reduce unit costs of corporate support
7. Overhead             functions through selective outsourcing,
                                                                              TBD                TBD
   functions            staffing reductions, skills development, and
                        greater use of technology
TBD: To be determined




          CC-2006-040                                                                           A-1
                      Table A. Amtrak’s Proposed Operational Reforms (cont.)


                        Improve on-time performance of Acela and
8. Service
                        NEC trains through operational modifications      TBD   TBD
   reliability
                        and targeted investments

                        Reduce unit costs and increase flexibility by
                        negotiating new labor agreements that
9. Labor
                        eliminate certain work rule and outsourcing       TBD   TBD
   contracts
                        restrictions, and base wages on market
                        levels
                        Enhance financial performance of other
                        activities and functions through continued
10. Ongoing
                        business improvements (e.g., operating crew       TBD   TBD
    efficiencies
                        optimization, maintenance of way
                        productivity)
 Business Line

                        Improve performance of all routes by
                        redefining sub-brands, restructuring,
1. Long Distance                                                          TBD   TBD
                        services/routes, selected luxury outsourcing,
                        and corporate initiatives

                        Boost financial contribution through
2. NEC                  improved load factors, adjusted service
                                                                          TBD   TBD
   Operations           patterns, re-launching sub-brands, trip time
                        investments, and corporate initiatives

                        Improve competitiveness of State services,
                        establish pilot competition project, and
3. Corridors                                                              TBD   TBD
                        transition States to full cost recovery for all
                        corridor routes

                        Optimize use of fleet, maximize load factors,
4. Fleet                and increase revenues by improving current
                                                                          TBD   TBD
   Utilization          train consist efficiency and retiring or
                        redeploying excess equipment


                        Develop a long-term capital master plan and
                        operate NEC efficiently on behalf of all
5. Infrastructure                                                         TBD   TBD
                        users, while establishing a fair sharing of
                        operating and capital costs among all users

Source: Amtrak Strategic Planning Department




          CC-2006-040                                                           A-2
      Appendix B. Amtrak’s Savings to Date from Operational Reforms
  In our April 2006 report, we reported Amtrak’s operating savings based on a
  framework of sub-baselines. Table B-1 presents the estimated annual savings and
  year-to-date savings for FY 2006. Tables B-2 and B-3 present the savings from
  operational reforms beyond those included in the FY 2006 Board-approved budget
  and included in the FY 2006 Board-approved budget respectively.


                  Table B-1. Summary of Amtrak Savings by Sub-Baseline
                  FY 2006 Year to Date through May 2006 ($ in thousands)
                                                Estimated   Estimated    Actual
     Amtrak Net Operating Savings                Annual        YTD        YTD      Variance
                                                 Benefit     Benefit     Benefit      +/-
 Corporate Initiatives                           $19,118     $12,406    $20,169     $7,762
 Food and Beverage                                 7,687       4,519      9,698       5,178
   OBS Labor                                       7,919       2,864      5,336       2,471
   Commissary Labor and Support                      266         258        258           --
   F&B Stock Supplies (non-labor)                (1,465)         435      4,349       3,914
   Food & Beverage Revenue                           967         962      (245)     (1,207)
 Train Operations                                  6,284       4,514      6,182       1,668
   Labor Efficiencies                              5,228       3,654      2,488     (1,166)
   Fuel Conservation                               1,056         860      3,694       2,834
 Corporate Overhead                                5,147       3,373      4,289         916
   Law Department Efficiencies                     1,400       1,068      1,260         192
   Technology Efficiencies                         3,297       2,005      2,005           --
   Energy Management                                 450         300      1,024         724
 Business Line Initiatives                       18,613       11,416     26,110     14,694
 Long Distance Train Service                       2,600       2,149      4,173       2,024
   Enhanced Service Offerings*                     2,600       2,149      4,173       2,024
 NEC Operations                                  16,012        9,267     21,937     12,670
   Fare and Revenue Management                   15,000        8,667     18,970     10,303
   Labor Efficiencies                              1,013         600      2,967       2,367
  Total                                         $37,731      $23,822    $46,279    $22,456
* Data were available only through April 2006




  CC-2006-040                                                                        B-1
    Table B-2. Summary of Reforms Beyond the FY 2006 Board-Approved Budget
               FY 2006 Year to Date through May 2006 ($ in thousands)

     Amtrak Net Operating Cost                  Estimated     Planned
             Savings                             Annual         YTD       Actual YTD   Variance
                                                 Benefit      Benefit      Benefit        +/-
 Food and Beverage                                  $4,788      $1,752       $1,988       $236
   OBS Labor                                          7,233      2,254        2,490        236
   F&B Stock Supplies (non-labor)                   (2,446)       (502)        (502)          --
 Corporate Overhead                                   1,829      1,053        1,777        724
   Technology Efficiencies                            1,379         753          753          --
   Energy Management                                    450         300       1,024        724
   Total                                            $6,617      $2,805       $3,765        $960



         Table B-3. Summary of Reforms in the FY 2006 Board-Approved Budget
                 FY 2006 Year to Date through May 2006 ($ in thousands)
                                                  Estimated    Planned      Actual
    Amtrak Net Operating Savings                   Annual        YTD         YTD       Variance
                                                   Benefit     Benefit     Benefit        +/-
 Food & Beverage                                    $2,899     $2,767      $7,710        $4,942
   OBS Labor                                           686        610       2,846          2,235
   Commissary Labor and Support                        266        258         258              --
   F&B Stock Supplies (non-labor)                      981        937       4,851          3,914
   Food & Beverage Revenue                             967        962       (245)        (1,207)
 Train Operations                                    6,284      4,514       6,182          1,668
   Labor Efficiencies                                5,228      3,654       2,488        (1,166)
   Fuel Conservation                                 1,056        860       3,694          2,834
 Corporate Overhead                                  3,318      2,320       2,512            192
   Law Department Efficiencies                       1,400      1,068       1,260            192
   Technology Efficiencies                           1,918      1,252       1,252              --
 Long-Distance Train Service                         2,600      2,149       4,173          2,024
   Redefining Service Offerings*                     2,600      2,149       4,173          2,024
 NEC Operations                                     16,013      9,267      21,937        12,670
   Fare and Revenue Management                      15,000      8,667      18,970        10,303
   Labor Efficiencies                                1,013        600       2,967          2,367
   Total                                           $31,114    $21,017     $42,514       $21,496
* Data were available only through April 2006




      CC-2006-040                                                                          B-2
Analysis of Progress on Reforms in the FY 2006 Board-Approved Budget

Amtrak reported $42.5 million in savings through May 2006 from operational
reforms that were included in the FY 2006 Board-approved budget. Progress-to-
date is summarized below.

• Food and Beverage Reform. During FY 2005, Amtrak (1) renegotiated
   contracts with its food vendors; (2) eliminated food service on the Empire
   Corridor (between New York, New York and Albany, New York), which
   allowed Amtrak to close the Albany commissary in July 2005; and
   (3) increased menu prices on its food and beverage service. These initiatives
   resulted in $7.7 million in savings through May 2006, exceeding the
   $2.9 million in projected annual savings. These savings include $4.9 million in
   food supplies, $257,955 in commissary labor, and $2.8 million in OBS labor.

• Train Operations. Amtrak has several sub-initiatives underway, including
   consolidation of facilities and work functions and conservation of train fuel.
   - Our April report included discussion of an initiative to consolidate
       Amtrak’s Amfleet maintenance from Albany to Washington, DC, which
       would eliminate 17 mechanic positions with an associated cost savings of
       $1.2 million. Although the maintenance work for the Amfleet equipment
       has moved to Washington, DC, F-40 locomotive overhaul work for the
       Keystone Corridor service in Pennsylvania has delayed the staff
       elimination. As a result, there are no labor savings to report. The labor
       reduction is expected to occur by the end of the year.
   - Additional initiatives are underway to improve labor productivity by
       reducing allowable overtime in Amtrak’s Mechanical Division and
       reducing core straight time wages in Amtrak’s Engineering Division by
       4 percent. These are budgeted to save $5.2 million in FY 2006. Through
       May 2006, Amtrak reported savings of about $2.5 million.
   - Through May 2006, Amtrak reported about $3.0 million in additional labor
       cost savings from improved crew management in the NEC.
   - Amtrak expects to reduce consumption of train fuel by 1 percent through
       improved locomotive handling and utilization, which is estimated to result
       in an annual operating cost savings of $1.1 million. Through May 2006,
       Amtrak has achieved a better-than-expected cost reduction of $3.7 million,
       based on a fuel cost of $1.83 per gallon. However, these savings from
       reduced fuel consumption were offset by an increase in the average price
       per gallon for fuel to $2.06 per gallon and resulted in core fuel costs that
       were $5.3 million higher than budgeted.



CC-2006-040                                                                     B-3
• Corporate Overhead. Overhead efficiencies implemented this year include a
   reduction in outside legal fees, software, and communications costs. Savings
   in FY 2006 are estimated at $3.3 million, with Amtrak reporting just over
   $2.5 million in savings through May 2006.

• Long-Distance Train Service. As part of an initiative to reposition the Empire
   Builder service as a luxury service, Amtrak rolled out an enhanced service
   offering in August 2005. This is the only reform of long-distance service
   Amtrak has implemented so far (excluding food and beverage initiatives). The
   enhanced service included refurbished sleeper, coach, and lounge cars; food
   and beverage upgrades, including additional on-board personnel; and a refocus
   on customer service. Ticket revenue on the Empire Builder was 18 percent
   higher ($3.9 million) on a cumulative year-over-year basis through May 2006
   and 6.6 percent higher than budget ($1.6 million). Sleeper Class accounted for
   $2.2 million of the revenue increase through May and 5,472 of the 8,393 gain
   in FY 2006 ridership. Ridership increased 2.9 percent over the same period a
   year ago and 1.5 percent higher than budget. Operating losses through April
   are $4.2 million lower than the same period a year ago, exceeding Amtrak’s
   expectations of a $2.6 million annual improvement from this initiative.
   However, the service continues to lose money. Last year, this train lost
   $45 million and has lost $29.2 million through April of FY 2006.

• NEC Operations. In October 2005, Amtrak began revenue management on
   NEC’s Regional Service and on the Acela in February 2006 by implementing
   variable rates on Acela and Metroliner services based on demand for tickets.
   Amtrak’s FY 2006 budget assumes $15 million will be realized from revenue
   management of the NEC trains. Through May, Amtrak estimates $19 million
   in revenue is attributable to revenue management. However, it is difficult to
   separate out multiple pricing factors, and Amtrak assumes one-quarter to one-
   half of all revenue increases are due to revenue management. It should also be
   noted that nearly all of these savings are from the Regional and Empire service.
   Acela, which has been weak this year due to increased competition from the
   airlines in the Northend, poor on-time performance, and fewer frequencies, has
   achieved only $1 million in benefit.




CC-2006-040                                                                    B-4
                        Appendix C. Data Reliability

In our April quarterly report, we cautioned that the data provided by Amtrak that
we relied upon for that report were not yet audited. Since we issued that report,
we have worked with Amtrak to ensure that the savings estimates are reliable so
that we can properly express our opinion on whether Amtrak has achieved savings
from operational reform.

Estimates of operating savings rely on data generated by Amtrak’s current
revenue and cost accounting systems. Over the past several months, we have
reviewed Amtrak’s reported cost savings to determine the accuracy, reliability,
and integrity of the information. As part of the review, we met with
representatives from each Amtrak operating group responsible for specific reform
initiatives to discuss the methodology used in the development of cost savings;
sources of financial data and the databases/systems used; and risks involved in
calculating cost savings (e.g., double and undercounting). We continue to discuss
monthly results with key Amtrak staff responsible for overseeing the
determination of savings by initiative.

Amtrak’s cost savings estimates by initiative rely primarily on selected account
codes from Amtrak’s Financial Information System (FIS). A few of the corporate
level initiatives rely on specific contracts and invoices. Savings estimates from
revenue managing NEC trains are based on an assumption that allocates some
NEC revenue increases to fare increases and some to revenue management.

Amtrak’s Consolidated Financial statements are audited annually by the
independent auditing firm KPMG. In FY 2005, KPMG reported a lack of
sufficient qualified accounting resources as a material weakness. Relevant to our
review and with respect only to Amtrak’s food and beverage initiatives, we found
that Amtrak’s 6-digit account classification system did not allow for measuring
specific sub-initiatives. The sub-initiatives that are affected are the non-labor
segment of Amtrak’s food and beverage initiatives, including vendor contracts, the
Gate Gourmet contract, and Amtrak’s Simplified Dining program. These
initiatives affect multiple account codes and their impact cannot be separated to
the sub-initiative level.

It should be noted that this is a structural accounting system issue. Amtrak can
reliably measure costs savings within existing account codes. However, to
measure savings at the sub-initiative level requires the refinement of Amtrak’s
account classification system. To address this system shortcoming, Amtrak’s
reported savings for non-labor food and beverage reforms are based on FY 2006
estimated savings. Amtrak distributed estimated annual savings equally by the


CC-2006-040                                                                   C-1
remaining months of the fiscal year. Total non-labor savings from the combined
food and beverage initiatives are deemed reliable. However, the allocation of
benefits between non-labor food and beverage reforms in the Board-approved
budget and those not in the Board-approved budget remain estimates.

Measuring the success of Amtrak’s food and beverage initiative is complicated by
the fact that sub-initiatives build on each other. For example, savings from re-
negotiated vendor contracts on food and beverage supplies cannot be combined
with food cost savings from Amtrak’s Simplified Dining program on a train level
without double-counting savings. Only on-board labor savings can be directly
attributed to route and train level performance. Thus, we have revised our sub-
baselines for measuring cost savings from Amtrak’s food and beverage initiatives
to reflect the labor and non-labor savings across sub-initiatives. This approach
prevents any double-counting of savings.

The remaining savings from reform initiatives that were not included in the
FY 2006 Board-approved budget are corporate level initiatives, and we did not
identify any reporting issues with them.

Amtrak’s savings estimates are developed from multiple sources, which include
the FIS or general ledger; Route Profitability System (RPS); Corporate Law
Department’s Matter Management System and Electronic Invoicing System
(Etrax); invoices, contracts and agreements; and assumptions based on expected
activity levels.

Amtrak has had to establish new tracking systems to measure the savings from
initiatives. In order to understand how Amtrak developed its cost savings, we
participated in a demonstration of the Amtrak Financial Gateway System
(FinGate). The FinGate system extracts Amtrak’s general ledger data by various
dimensions: business line, account code, category, responsibility center, period of
time, train, and operating metric. This provides a direct link to the business areas
under Amtrak reform.




CC-2006-040                                                                     C-2
                          Appendix D. Commuter Access Fees

Congress requested that our office include an assessment of the Department’s
efforts in assessing and collecting commuter access fees in this and subsequent
quarterly reports. The FY 2006 Appropriations Act directed the Secretary to:
       • determine the annual capital and maintenance costs to Amtrak associated
         with the use of Amtrak-owned infrastructure on the Northeast Corridor by
         commuter railroads that operate over that corridor,14
       • assess and collect appropriate fees from the commuter railroads for any
         direct capital and maintenance costs based on relative infrastructure usage,
         and
       • account fully for the contributions that commuter railroads currently make
         toward these costs in determining appropriate fees.

We met separately with the Federal Railroad Administration (FRA) and the
Coalition of Northeastern Governors (CONEG) to prepare this assessment. The
FRA has not publicly announced how it intends to calculate or collect commuter
access fees. This assessment of FRA’s efforts will focus on issues we believe will
need to be addressed in the fee proposal and other related observations.

Timing. It is unlikely the FRA will collect commuter access fees in FY 2006.
FRA would need to promulgate an Interim Final Rule (IFR) almost immediately if
it intends to collect fees in FY 2006. This timetable would permit 30 days for
public comments and consultation, 30 days for States to pay the fee after being
billed, and a very brief period for FRA to collect fees from States, if any, that do
not pay their fee on time. This timetable is very aggressive even assuming the
FRA were prepared to issue a rulemaking in the next several days.

Consultation. Congress directed the Secretary to establish these fees “through an
open and transparent process that seeks, to the maximum extent possible, to yield
a consensus on the part of all stakeholders as to the appropriate distribution of
costs between said stakeholders.” FRA held a series of roundtable meetings with
stakeholders early on and there have been a number of subsequent meetings
between Department and State officials. Recent consultations have been limited
or non-existent, which is a normal part of the rulemaking process. Typically, two-
way communication and consultation begins again after an agency’s internal
deliberations are completed and a final proposal is made public. Given the lack of


14
     There are seven commuter authorities operating over the Amtrak-owned NEC. These include MARC,
     DART, SEPTA, NJ Transit, LIRR, SLE, and MBTA.



CC-2006-040                                                                                  D-1
progress at this late date in the fiscal year, only the barest minimum of time exists
to further consult with stakeholders.15

Methodology. While FRA does not have a final methodology it is ready to make
public, we did discuss with them their approach to calculating the fees. In general,
the maintenance and capital costs by rail segment for each of the commuter
railroads operating on Amtrak-owned infrastructure would be identified. Costs
would be allocated among users according to different factors, such as passengers,
train movements, kilowatt hours, and unit miles.16 Netted against these costs are
the commuter agency contributions. These include payments to Amtrak for access
charges (net of the portion for operating expenses), joint benefit capital projects,
and in-kind contributions for station projects and for the portions of the NEC
owned by New York and Connecticut. This methodology appears reasonable, but
is preliminary in nature. The test will be how the final methodology is
implemented on a case-by-case basis.

Data. The quality of the data upon which the fees will be calculated is a concern
since it is being derived, in part, from systems which were not designed to provide
such data on a State, route, or track basis. FRA recognizes this concern and has
been working to “scrub” the data to improve their accuracy and reliability.

Definition of the NEC. The NEC has been defined at various times narrowly (i.e.,
just the spine from Washington, DC to Boston) and at times more broadly (i.e., the
spine plus the 104-mile-long rail line between Philadelphia and Harrisburg, PA,
the 62-mile-long rail line between New Haven, CT, and Springfield, MA, and the
11-mile-long rail line between Pennsylvania Station in New York City and the
northernmost tip of Manhattan [Spuyten Duyvil] in New York City). FRA will
need to adopt a definition of the NEC in its rulemaking. We can see no reason
why commuter railroads using the spur lines would be treated differently from
commuter railroads using the spine.

Variability of Capital Costs. By their nature, capital projects can require large
investments in one fiscal year followed by smaller investments in subsequent
years. In addition, the relative payments in one year by a commuter railroad and

15
   On January 30, 2006, CONEG wrote to the Secretary expressing concern “that the rapid schedule
   designed by the Department does not conform to the Congress’ requirements for an open and transparent
   process that seeks a consensus on the part of all stakeholders.” The process CONEG considered too
   rapid included several more months for consultation among stakeholders than are currently available if
   the fees are to be collected this fiscal year.
16
   This use of unit miles (number of cars and locomotives) rather than train miles in allocating costs (as
   suggested by the legislation) was preferred by the FRA and the commuter agencies. This method
   considers the impact from varying weights of different train consists and is considered a more
   appropriate determinant of maintenance requirements. Thus, a longer train, which causes more wear and
   tear on the system, would be assessed a higher fee than a shorter train.


CC-2006-040                                                                                         D-2
Amtrak may not reflect the relative payments agreed to for the project as a whole,
i.e., the commuter may pay more than its share this year and Amtrak may pay
more than its share the following year. As a result, the capital contributions in any
one year may not reflect the average level of capital contribution over the long
run. Therefore, to prevent large swings in the access fee, FRA should consider
using a rolling average or some alternative method that better reflects the longer-
term capital contribution of each party. At the very least, FRA should compare the
actual costs incurred in a particular year with the actual contributions made in that
same year.

Relative Priority of Capital Projects. The commuter railroads may choose to fully
fund a capital project even though it partially benefits Amtrak because it is a low
priority for Amtrak (and vice-versa). FRA’s methodology would credit the
commuter with this “contribution” to Amtrak even though Amtrak may not value
it. FRA should examine the degree to which this occurs and whether an efficient
allocation methodology can be used to account for this issue.

Use of Funds. Currently, commuter railroads and States that make capital
contributions to Amtrak have a voice, through the contract negotiations, in how
that money is spent. The FY 2006 Appropriations Act allows the Secretary to
decide on what capital projects commuter access fees will be spent. The Secretary
should maintain the integrity of the user charge concept by considering the views
of the State or commuter railroad paying the fee when the Secretary decides how it
should be spent.

Prior to the FY 2006 Appropriations Act, the relationship between the commuter
railroads and Amtrak was governed by directly negotiated contracts under the
general constraints of the Interstate Commerce Commission’s (ICC) decision in
Ex Parte 417.17 In this decision, the ICC decided that commuter railroads need
only compensate Amtrak for use of its infrastructure on an avoidable cost, not a
fully allocated basis. It remains to be seen whether and to what degree the actual
contracts between the commuter railroads and Amtrak result in contributions that
cover the commuters’ fully allocated costs over time. The lumpiness of capital
projects makes one year’s worth of data inadequate to truly understand the balance
between costs and contributions.




17
     367 ICC 192. (ICC Feb. 1, 1983). Commuter operations started after 1983 were not covered by Ex Parte
     417.


CC-2006-040                                                                                         D-3
